Corporation                                                                        Office of Inspector General
for Public
Broadcasting



Date:                  September 12,2014

To:                    Jackie J. Livesay, Vice President, Compliance

cc:                    Steve Altman, Senior Vice President, Business Affairs
                       Ted Krichels, Senior Vice President, System Development & Media Strategy

From:                  Mary Mitchelson, Inspector General y

Subject:               Other Matters—Audit of the Digital Distribution Grant Awarded to Centralcast
                       LLC, Albany, New York, Report No. L-APT1404-1408

In planning and performing our audit of the Corporation for Public Broadcasting (CPB)
Digital Distribution Fund Agreement, CPB Account No. 14268, DDF Round 17 Grant
awarded to Centralcast LLC, (CC) we noted that CPB did not approve variances and
associated reallocations exceeding ten percent of the amounts budgeted as required by
the grant agreement. Specifically, CPB did not follow grant requirements to provide
its prior written consent to budget changes reported by CC. Moreover, the grant
agreement did not require CC to report the reasons for the variances to CPB. Instead,
it required CPB only to provide written prior approval for the variances.


We have reported similar findings to CPB in the four audit reports listed in Exhibit A.
In response to two of these reports, CPB's management decisions stated that the
grantee should follow grant requirements, even though CPB did not follow the grant
requirements to provide written approvals of the budget changes but authorized CPB
payments against the revised budgets. In the other two audits, CPB's management
decisions allowed the costs we questioned as budget over-runs, where CPB had again
not approved the budget changes in writing.


Documenting material budget changes is an important part of effective grants
administration. CPB should document its approval of material budget changes. If
CPB plans to continue not approving and documenting its consent to material budget
changes, we recommend this requirement be either revised or eliminated from future
grant agreements.




401 Ninth Street, NW
Washington. DC 20004-2129
202.879.9669 202.879.9699 fax
www.cpb.org/oig
